WAIVER

Supreme Court, U.S.

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK

Supreme Court Case No.

FILED

JUN 1 1 2020

19-1335

Timothy James Dummer

California Contractors State License Board, et al.

(Petitioner)

(Respondent)
en 0

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

0 I am a member of the Bar of the Supreme Court of the United States.

.0.

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature ----'<
Date.

June 11, 2020
Michael Sapoznikow, Deputy Attorney General
Mr.
0 Ms. ❑ Mrs. D Miss
Office of the California Attorney General

(Type or print) Name

Firm

Address

1300 I Street, Suite 125, P.O. Box 944255

City &, State

Sacramento, California

916-210-7344

Phone.._.......__....___.,....

zip 94244-2550
Email michael.sapoznikow@doj.ca.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Petitioner Timothy James Dummer, pro se

RECEIVED
JUN 19 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

No. 19-1335
IN THE
SUPREME COURT OF THE UNITED STATES

TIMOTHY JAMES DUMMER, Petitioner
V.
CALIFORNIA CONTRACTORS STATE LICENSE BOARD, ET AL., Respondents
PROOF OF SERVICE
I, Maria E. Conde, do swear or declare that on this date June 11, 2020, I
have served the enclosed WAIVER on each party to the above proceeding
or that party's counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Timothy J. Dummer
7527 Blue Fox Way
San Ramon, CA 94583

I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 11, 2020

/s/ ME. Conde
M.E. Conde

